No. 19-292

 

IN THE
Supreme Court of the United States

ROXANNE TORRES,

Petitioner,
v.

JANICE MADRID AND RICHARD WILLIAMSON,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF OF THE RUTHERFORD INSTITUTE
AND NATIONAL ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS AS AMICI CURIAE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,713 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 7, 2020.

 

Wilson-Epes Printing Co., Inc.
